No.

3Jn t{Je ~upreme QCourt of tbe ijliniteb ~tates
JOHN DOE,

Applicant! Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
PROOF OF SERVICE

I, William B. Mateja, a member of the Bar of this Court, hereby certify that all parties
required by the Rules of this Court to be served have been served. On this I 0th day of
September, 2019, a copy of this Application for Extension of Time to File Petition for a Writ
of Certiorari to the United States Court of Appeals for the Fifth Circuit was mailed by firstclass mail, postage prepaid, and transmitted by electronic mail , to:
NOEL FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.-Room 5616
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@usdoj.gov
Counsel for United States of America

WiL-fz·IVl~

MATA

WILLI AM B.
Texas Bar No. 13185350
bmateja@sheppardmullin.com
Sheppard Mullin Richter & Hampton LLP
2200 Ross A venue-Suite 2400
Dal las, Texas 75201
(469) 391-7415
(469) 391-7559 Fax

SMRH:4844-5085-3794 .l

-5-

